Daniel L. Geyser
Chair, U.S. Supreme Court and
Federal Appellate Practice

Alexander Dubose & Jefferson

Walnut Glen Tower
8144 Walnut Hill Lane, Ste. 1000
Dallas, TX 75231
T: 214.396.0441
dgeyser@adjtlaw.com

VIA ELECTRONIC FILING
April 2, 2021
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Denise A. Badgerow v. Greg Walters, et al., No. 20-1143

Dear Mr. Harris:
Pursuant to this Court’s order of March 19, 2020, petitioner in the above-captioned
case respectfully requests that the Court delay distribution of the petition for a writ of
certiorari until April 14, 2021, and set it for consideration at the conference on April 30,
2021. The petition is currently scheduled for distribution on April 7, 2021 for consideration
at the April 23 conference.
In addition to the heavy press of other matters (including other proximate deadlines
and an argument in this Court on April 21), petitioner’s counsel are dealing with logistical
and other difficulties related to COVID-19, which has complicated their ability to prepare
and finalize a brief that will be most helpful to the Court. This one-week delay would still
permit the Court to consider the case at an April conference, and thus will not materially
delay the case’s disposition.
Respondents’ counsel has informed us that their clients consent to this request.
We appreciate your assistance.
Sincerely,
/s/ Daniel L. Geyser
Daniel L. Geyser
cc:

Counsel for respondents
(see attached service list)

SERVICE LIST:
Denise A. Badgerow v. Greg Walters, et al., No. 20-1143
Eve B. Masinter
E. Fredrick Preis, Jr.
Matthew M. McCluer
BREAZEALE, SACHSE & WILSON, L.L.P.
First Bank & Trust Tower
909 Poydras Street, Ste. 1500
New Orleans, LA 70112-4004
(504) 584-5468
eve.masinter@bswllp.com
efp@bswllp.com
matthew.mccluer@bswllp.com

